<html>
<title> - A REVIEW OF VA'S VETSUCCESS ON CAMPUS PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







             A REVIEW OF VA'S VETSUCCESS ON CAMPUS PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, OCTOBER 22, 2015

                               __________

                           Serial No. 114-40

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-695                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















  
                     COMMITTEE ON VETERANS' AFFAIRS
  
                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.















                            C O N T E N T S

                              ----------                              

                       Thursday, October 22, 2015

                                                                   Page

A Review of VA's VetSuccess on Campus Program....................     1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
Mark Takano, Ranking Member......................................     2

                               WITNESSES

Mr. Terence Harrison, Manager, Veterans Programs and Services, 
  University of Cincinnati.......................................     3
    Prepared Statement...........................................    17
Dr. Lawrence A. Braue, LTC (USA, Ret.), Director, Office of 
  Veterans Services, University of South Florida.................     5
    Prepared Statement...........................................    18
Mr. William Hubbard, Vice President of Government Affairs, 
  Student Veterans of America....................................     7
    Prepared Statement...........................................    20
Mr. Ryan Kaufman, Nebraska Veteran Team Leader, Iraq and 
  Afghanistan Veterans of America, Lieutenant Colonel (U.S. Army, 
  Ret.)..........................................................     8
    Prepared Statement...........................................    28
Mr. Jack Kammerer, Director, Vocational Rehabilitation and 
  Employment Service, VBA, U.S. Department of Veterans Affairs...    10
    Prepared Statement...........................................    34
 
             A REVIEW OF VA'S VETSUCCESS ON CAMPUS PROGRAM

                              ----------                              


                       Thursday, October 22, 2015

                  House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Takano, and Bost.

               OPENING STATEMENT OF BRAD WENSTRUP

    Dr. Wenstrup. Well, good afternoon, everyone. I want to 
welcome you all to the Subcommittee on Economic Opportunity's 
hearing today entitled, ``A Review of VA's VetSuccess On Campus 
Program.''
    The VetSuccess On Campus Program is administered by the 
Department of Veterans Affairs and the Vocational 
Rehabilitation and Employment Program. VetSuccess On Campus 
began as a pilot program in 2009 at the University of South 
Florida, who is with us today, and has since expanded to 94 
campuses across the country.
    The program is in place to provide veterans, service 
members and their dependents with assistance and counseling as 
they are utilizing their GI Bill or attending school through 
Voc Rehab. VSOC is an additional resource for veterans and 
service members as they transition from active duty to student 
life, and further assists them as they work towards meaningful 
employment following their military careers.
    Each school with a VSOC program has a Voc Rehab counselor 
in place to assist the students attending that school. While I 
do believe it is important that our student veterans have 
qualified individuals assisting them throughout their college 
careers, I have said before that I do have some concerns with 
these master's-level counselors being at each VSOC location.
    As we discussed earlier this year at our Oversight hearing 
on Voc Rehab, VR&E counselors are still experiencing high 
caseloads, yet more counselors aren't being requested by this 
administration to alleviate these weighing numbers.
    A master's-level counselor may not be necessary at every 
VSOC location, but could be utilized elsewhere to bring down 
some of the caseloads. This doesn't mean that VA shouldn't have 
a representative at these schools, I am just not sure if the 
current counselors are the best options. I hope that our 
witnesses here today are able to touch on these concerns and 
how we can potentially utilize the VSOC counselors to also 
assist in VR&E caseloads nationally.
    I do look forward to discussing the VSOC program's success 
and outcome measurements at its current university locations. 
Just as is the case with Voc Rehab, it is hard to fully grasp 
and track the outcomes of veterans who utilize the VetSuccess 
On Campus program. However, since the program was started by VA 
as a pilot program and is not something that is in statute, I 
think it is important for the program's future that we take a 
thorough look at outcomes and how our student veterans are 
benefitting from the program that is provided while they are 
attending school. Having these discussions is important if we 
decide to make VSOC permanent for future generations of 
veterans.
    I am pleased today that in addition to our other witnesses, 
we have two schools, that have VSOC programs on their campuses. 
With us is the University of South Florida, which as I 
mentioned is where VSOC was first piloted in 2009, and we have 
the University of Cincinnati, who also have a thriving program 
for their student veterans. It is important that we hear their 
perspectives of this program and the impact the presence of 
this program has on their campuses, as well as their 
interactions with VA. I believe this is also an opportunity to 
understand their best practices, and how they share those 
practices with other schools and student veterans nationwide.
    Although I do have concerns, as I have already mentioned, 
with the utilization at all 94 locations of master's-level Voc 
Rehab counselors, I do believe that this program can be an 
immense resource for our veterans and their families as they 
transition from military life to, not only civilian life, but 
to the life of a college student. It is not always an easy path 
to maneuver and I believe that this hearing is an important 
opportunity for the subcommittee and our witnesses to focus on 
enriching and expanding this resource even more.
    With that, I recognize the Ranking Member, Mr. Takano, for 
his remarks.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. And I appreciate the 
opportunity for the subcommittee to take a close look at the 
VetSuccess On Campus program today.
    As you know, the VSOC program provides an on-campus 
resource for veterans, service members, and qualified 
dependents to receive support for any issue or concern that 
might interfere with a student's goal of persisting through to 
graduation. Obstacles could include VA benefit issues, 
questions about where to go for mental health counseling, 
concerns about financial or legal issues, or job market 
information.
    We know from many studies that successful transition from 
active duty to civilian life requires significant planning and 
support from the military and the VA. Transitioning from active 
duty to campus life can be even more daunting, especially for 
first-generation college students. Add the burdens of injury or 
PTS, and it is not hard to imagine why graduation levels are 
not as high as we would like them to be for veterans using 
their GI Bill benefits.
    Now, this is where the VSOC counselor comes in, however. 
They are easily accessible on campus, so problems are resolved 
as quickly and as easily as possible. I am hoping VA will 
provide us with concrete data on VSOC outcomes today. I want to 
hear evidence that the program provides clear, quantifiable 
benefits to student veterans, data that will increase the 
likelihood that we can expand this successful program.
    I also know that the VSOs support this program and were 
instrumental in creating it. If they have recommendations for 
how the VSOC program can be improved now that has existed for 
almost six years, I want to hear what they have to say.
    I thank the witnesses for being here today, and I look 
forward to the opportunity to hear your views and ask 
questions.
    Thank you, Chairman Wenstrup, and I yield back.
    Dr. Wenstrup. Well, I thank the ranking member.
    And I now invite our first and only panel to the table. I 
do want to thank our witnesses for understanding that we had to 
combine panels today due to scheduling issues, but I appreciate 
you being here and I view your testimony as very important.
    I want to welcome back my friend Mr. Terence Harrison, who 
is the Manager for Veterans Programs and Services at the 
University of Cincinnati. I also want to welcome Dr. Lawrence 
A. Braue, who is the Director for the Office of Veterans 
Services at the University of Florida; Mr. Will Hubbard, Vice 
President of Government Affairs for Student Veterans of 
America; Mr. Ryan Kaufman, who is the Nebraska Veteran Team 
Leader for the Iraq and Afghanistan Veterans of America; and 
Mr. Jack Kammerer, the Director of the Vocational 
Rehabilitation and Employment Services at VA.
    All of your complete written statements will be made part 
of the hearing record and each of you will be recognized for 
five minutes for your oral statement.
    So let's begin with you, Mr. Harrison. You are now 
recognized for five minutes.

                 STATEMENT OF TERENCE HARRISON

    Mr. Harrison. Thank you. I would like to thank you, 
Chairman Wenstrup, Ranking Member Takano, and members of the 
Subcommittee on Economic Opportunity for inviting me to 
participate in today's hearing on the Department of Veterans 
Affairs' VetSuccess On Campus program.
    Once again, my name is Terence Harrison, I am the Manager 
of Veterans Programs and Services at the University of 
Cincinnati.
    The University of Cincinnati, or UC, is a public research 
university enrolling more than 44,000 undergraduate and 
graduate students in 2014. Our campus is made up of students 
from all 50 states and over a hundred countries from around the 
world.
    Recognized as a military-friendly school, UC is both a 
leader and champion in military and veteran-related issues. 
Currently, UC enrolls about 2,392 military-affiliated students, 
including active duty military, members of the National Guard 
or Reserves, and veterans and family members. Of this, 1,016 
students are using GI Bill benefits. With the anticipated draw-
down of active-duty personnel, the University of Cincinnati has 
positioned itself to accommodate these students. The UC adheres 
closely to the VA's principles of excellence in providing a 
high-quality educational experience tailored to the unique 
needs of our veteran students.
    The University of Cincinnati continues to hold a positive 
view of the VetSuccess On Campus or VSOC program. UC is home to 
one of three VSOC programs in the State of Ohio, with the other 
two being Ohio State and Cleveland State Universities. The VSOC 
program aims to assist veterans and service members, as well as 
their dependents, as they transition from active duty to post-
secondary education.
    Through the VSOC program, a VA Vocational Rehab counselor 
is assigned to UC to support veterans and assist with any 
problems that may arise that may interfere with the education 
of a student veteran. At UC, student veterans regularly reach 
out to VSOC for assistance on a range of matters, including 
expediting and resolving issues of VA educational benefits, 
looking up pending VA payments and when they can expect to 
receive them, explaining VA payments clearly, assisting in 
applying for education, healthcare and other VA benefits, 
questions about their remaining benefits, and understanding and 
resolving VA debt.
    VSOC is a valuable resource for our student veterans and 
assures that they will receive expedient service from the VA 
while they attend UC. Our VSOC counselor has been with the VA 
for over nine years and has been helpful in establishing a 
successful VSOC program at UC.
    The UC's partnership with VSOC began in September of 2013. 
At UC, VSOC is housed within the same room or building as the 
Veterans Programs Services Office to meet the needs of student 
veterans and to provide a cross-functional team approach to 
resolving challenges that our veterans face. Housing the VSOC 
office and our VSOC counselor on campus allows UC to coordinate 
with the VA.
    VSOC conducts additional outreach activities, including 
employment workshops focusing on translating military schools 
into a civilian resume, recognizing post-traumatic stress 
disorder and traumatic brain injury symptoms, new student 
orientation, town hall meetings, job fair, and health fairs in 
collaboration with VA Medical Centers.
    In addition, the VSOC University is--of Cincinnati is also 
a Veterans Integration to Academic Leadership or a VITAL 
location. VSOC and VITAL together have developed a streamlined 
approach to assisting veterans with VA Medical Center needs. 
This approach provides UC's veterans with expedited VA Medical 
Center service coordination at the Cincinnati VA Medical 
Center.
    In order to best meet the needs and improve the services 
for our student veterans, we believe that it is important to 
expand the VSOC to additional schools. For smaller schools that 
do not have a VSOC, we suggest that VSOC work with a number of 
schools in a geographical area. For example, in Southwest Ohio, 
one counselor could oversee Xavier University, Cincinnati State 
Technical and Community College, and Mount St. Joseph 
University. The caseload of these counselors could be 
comparable to the caseload at larger schools and give the 
student veterans at these institutions the support that they 
need.
    As for improved coordination between universities and the 
VA, we have found that housing our VSOC counselor on campus has 
allowed UC and the VA to easily collaborate, which is 
beneficial to our student veterans.
    In closing, I'd like to thank you again for allowing me to 
discuss the VSOC program and to share the great work that the 
University of Cincinnati is doing to accommodate our student 
veterans. I look forward to working with you as you expand 
services for student veterans and again offer the University of 
Cincinnati as an example to inform policy and to guide schools 
in shaping their programs.
    And I am happy to answer any questions that you may have.

    [The prepared statement of Terence Harrison appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Harrison.
    Colonel Braue, you're now recognized for five minutes.

        STATEMENT OF LAWRENCE A. BRAUE, LTC (USA, RET.)

    Lieutenant Colonel Braue. Thank you, Chairman Wenstrup, 
Ranking Member Takano. On behalf of the University of South 
Florida, thank you for holding today's hearing and allowing us 
to share our experience with the VetSuccess On Campus program 
and its impact that it makes on our campus every day.
    By way of background, the University of South Florida is a 
high-impact global research university dedicated to student 
success. It is the eighth-largest university in the U.S. and 
serves over 48,000 students. In addition, over 2,000 veterans 
and their families are enrolled as students at USF. USF was 
ranked by Military Times ``Best for Vets'' Magazine as the 
fifth-best college for veterans. Under the leadership of 
President Judy Genshaft, the University of South Florida has 
become a national leader in serving student veterans.
    In 2009, the University of South Florida became the first 
institution of higher learning to participate in the Department 
of Veterans Affairs' VetSuccess On Campus program. Ms. Janine 
Frederick is our current VSOC counselor and has served in this 
role since June of 2010.
    Ms. Frederick quickly became an integral part of the Office 
of Veterans Services' team and an effective liaison between USF 
and the VA. Ms. Frederick is an amazing counselor and has made 
the program a complete success on our campus.
    Having the VSOC counselor available to veterans on a daily 
basis has vastly improved the university's ability to meet the 
needs of our students. In addition, it has greatly increased 
the confidence that our student veterans have in the Department 
of Veterans Affairs.
    Through the VetSuccess On Campus, our counselor has 
developed an extremely effective outreach program that 
dramatically increased the awareness of VA programs and 
benefits available to student veterans. This calendar year, Ms. 
Frederick has helped over 300 veterans individually and reached 
over 750 students through various campus outreach events. She 
is frequently called upon to advocate for veterans with faculty 
members who do not understand the challenges our disabled 
veterans face in the classroom.
    In the fall of 2013, Ms. Frederick initiated a highly 
successful vet-to-vet tutoring program where academically 
successful VA work study veterans would provide one-to-one 
tutoring for other student veterans. Since this program started 
in the fall of 2013, over 165 students have received 
individualized tutoring services at no cost to the veteran.
    The VetSuccess On Campus program has not been without 
challenges for the University of South Florida. It's important 
that I clarify that I can only speak for the University of 
South Florida and what we have experienced.
    The VetSuccess On Campus program is influenced by two 
separate offices with the Vocational Rehabilitation Education 
arm of the VA. Oftentimes those two offices provide our VSOC 
counselor with competing or conflicting guidance. Because the 
regional office has a very limited understanding of VSOC and is 
not involved in the day-to-day operation of the program, it 
makes it very difficult for them to provide effective 
supervision for the VSOC counselor.
    Over time, the VetSuccess On Campus program's purpose and 
goals have changed without some collaborative effort with the 
university. For example, recently the VR&E office assigned a 
Chapter 31 caseload of 50 to our VSOC counselor. This is 
approximately one third of a Chapter 31 caseload for a full-
time VR&E counselor. This is a significant change which alters 
the way the VSOC functions on our campus. This change is also 
inconsistent with the memorandum of understanding between USF 
and the VA, which creates hardship for the VSOC counselor and 
the school. This effectively reduces her ability to have a 
positive impact on the academic and lifelong success of the 
total veteran population on campus.
    In order to maximize the effectiveness of our partnership, 
the university should be a part of the program development and 
decision-making process. I believe with a few structural and 
leadership modifications this program could greatly enhance 
retention and graduation rates for students using the post-9/11 
GI Bill.
    My recommendations would be to simplify the reporting 
structure for the VetSuccess On Campus program by creating one 
office that would oversee the program and the VSOC counselors, 
and ensure that the VSOC counselors do not receive direction 
and guidance from multiple sources, establish and maintain 
consistent, meaningful dialogue between the VA and the 
university, ensuring that the university has a voice in the 
program development and decision-making process.
    I also believe it is critical that the VA include colleges 
and universities in the plan to develop success metrics for 
graduation and retention of veterans using the GI Bill.
    Again, I want to thank the committee for allowing the 
University of South Florida to share our experiences with the 
VetSuccess On Campus program. It is an honor and a privilege to 
have this amazing program on our campus. I hope that we can 
build upon the successes of the program and make the 
adjustments necessary to make the program even stronger for our 
future student veterans.
    Thank you very much.

    [The prepared statement of Lawrence A. Braue appears in the 
Appendix]

    Dr. Wenstrup. Why, thank you, Dr. Braue.
    Mr. Hubbard, welcome back. You are now recognized for five 
minutes.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Thank you, Mr. Chairman.
    Chairman Wenstrup, Ranking Member Takano, and members of 
the subcommittee, thank you for inviting Student Veterans of 
America to submit our testimony on the Department of Veterans 
Affairs' VetSuccess On Campus program. With over 1200 chapters 
across the country, we are pleased to share the perspective of 
those most directly impacted by the subject with this 
committee.
    Established in 2008, SVA has grown to become a force and 
voice for the interests of veterans in higher education. With 
this opportunity to address the VSOC program, we will discuss 
the program's success, areas for improvement, and the related 
issue of post-9/11 GI Bill processing challenges that we saw 
this fall.
    For student veterans at 94 campuses across the country, 
they have the benefit of a VetSuccess On Campus program. The 
VSOC program entails the campus having a VSOC counselor or 
full-time VA detailee right on campus. We are highly supportive 
of this program's intent, which we believe to be quite 
complementary with our own mission.
    When serving over 30 student veterans from 12 schools that 
participate in the VSOC program, the response was 
overwhelmingly positive. More than 85 percent of stakeholders, 
including SVA chapter presidents, chapter members and chapter 
advisers rate VSOC as a seven out of ten or higher on a one-to-
ten scale. Additionally, three out of five respondents say they 
rate their program as a nine or a ten.
    One student veteran shared, ``We have a VSOC counselor from 
the VA come to the school twice a month so vets can start a new 
claim or ask questions concerning a claim. This helps 
immensely, as the VA hospital is a 35-minute drive from school 
and keeps our vets on campus. Vets can ask our counselor any 
type of question concerning their benefits. They also have a 
Voc Rehab counselor for a few of the vets on campus. We are 
incredibly lucky to have this program on campus.''
    In addition to the general support provided by the VSOC 
counselors, student veterans noted the ability of counselors to 
quickly correct both process certification and as a major 
benefit on their campus. They often appreciate the connection 
counselors make with the school administration as well.
    We believe the VSOC program is highly beneficial to student 
veterans and would like to see it expanded, as resources allow.
    While the feedback we received was almost uniformly 
positive, in fact, when asked what they would change many 
student veterans replied, ``Nothing,'' we have identified 
several opportunities for improvement of the program.
    The three most common improvements included awareness of 
the program, expanding to more campuses, and increasing 
additional personnel support for the program. We believe it 
would also be worth considering the criteria of a VSOC campus, 
as a school with 800 or more veterans is likely to have 
reasonable resources at this time. Schools with fewer than 800 
veterans or greater may have a higher return on investment. To 
keep costs down, as my colleague pointed out earlier, grouping 
demographically close IHLs would be something worth thinking 
about.
    Turning to GI Bill processing issues, this fall semester 
highlighted several challenges that directly impacted student 
veterans. In early September, significant delays in the 
processing of GI Bill benefits became an obvious concern. 
Ultimately, the core challenges of VA's reliance on overtime 
hours for full-time employees during the peak periods of fall 
and spring enrollment continue to be an issue.
    Under a unique solution with the National Student 
Clearinghouse, VA and taxpayers incur no additional costs since 
the schools selected send the data through NSC, paying for the 
cost of the service, while VA benefits from the streamlined 
data submissions and research capabilities in conjunction with 
ed. data are resulting, this all with the added benefit of 
real-time measurement of completions and program efficacy, and 
we're happy to discuss that concept in further detail.
    We thank the committee for this opportunity to testify on 
these important issues and look forward to questions as they 
come up.

    [The prepared statement of William Hubbard appears in the 
Appendix]

    Dr. Wenstrup. Why, thank you, Mr. Hubbard.
    Mr. Kaufman, you are now recognized for five minutes.

                   STATEMENT OF RYAN KAUFMAN

    Mr. Kaufman. Chairman Wenstrup, Ranking Member Takano and 
distinguished members of the subcommittee, on behalf of the 
Iraq and Afghanistan Veterans of America and our more than 
425,000 members and supporters, we would like to extend our 
gratitude for the opportunity to share our views on VA's 
VetSuccess On Campus program.
    I served in the United States Army from 2000 to 2003. I was 
deployed with the 1st Brigade Combat Team in October of 2001 to 
Kuwait and Afghanistan as a signal support system specialist. 
Upon my return, the proper procedures and resources were not in 
place to catch the post-traumatic stress that I was dealing 
with. At 19 years old, I came home and I was afraid of the 
dark. I couldn't sleep and I had a hard time eating. If a task 
was not mission-critical, I could not find the motivation 
within myself to complete the task.
    Two months after I returned home, I caused an accident, 
almost killing myself and a friend. I was charged with driving 
under the influence. Everyone, including myself, just thought I 
had a problem with alcohol, but then I tested positive for 
marijuana. I had left the Army no choice, I was discharged with 
a general under honorable conditions.
    Six months after my discharge, I was homeless. A year 
prior, I was part of the world's greatest machine, the United 
States Army, but by December of 2003 I found myself walking 
into a homeless shelter, unable to feed or house myself. I 
couldn't comprehend how this had happened. Shortly thereafter, 
I was granted a couch in a friend's basement. I wish I had 
straightened my life out then, but this would not be my last 
experience with homelessness.
    In September of 2004, I enrolled in college for the first 
time. My discharge had left me without the GI Bill, so I took 
out Stafford Loans like the rest of the civilian population. I 
would repeat the homeless cycle and enroll in college two more 
times, only to fail out each time in the first semester.
    By 2011, I found permanent sobriety and, after four years 
of documented VA therapy and appeal after appeal, I was granted 
a service-connected disability in October of 2012. With school 
constantly on my mind, I immediately applied for the Vocational 
Rehabilitation and Employment program. I was interviewed, 
approved, and enrolled in another college. Jennifer Singer was 
the VA social worker who interviewed me for the vocational 
rehabilitation program and then was assigned to my case. The 
interview was tough, she asked some very personal questions. 
Ms. Singer advised me that she was investing in me, she was 
going to spend around $100,000 on my education with her time 
and my education cost, as well as my supply cost.
    Ms. Singer understood my background. I came from a single-
parent household, my parents did not attend college, my father 
barely graduated high school, and my mother, my primary 
caregiver, never made over $30,000 a year in her lifetime. In a 
place without mass transit, we did not own a vehicle until I 
was 15 years old. But because of the VetSuccess program, my 
children, both under the age of two, will understand the 
importance of an education, not because I said so, but because 
I did so.
    I am currently an organizational communication major at 
Doane College in Grand Island, Nebraska. In the community 
college I attended, I was part of the honors society. We all 
know the statistics of children whose parents did not attend or 
graduate college, the challenges they face multiply immensely. 
But because of VetSuccess, not only will the barriers to my 
success be broken down, but also my children's, and they 
haven't even enrolled in a learning system yet.
    Ms. Singer was also concerned about my mental health, my 
sobriety and my living situation. Her job was not merely to 
just make sure I attended and passed classes, she would hold me 
accountable, and I would give her my full effort during my 
Vocational Rehabilitation assignment.
    Since late January of 2013, I have accumulated over 60 
credit hours, transferred from a community college to a four-
year school, and have kept a 3.75 cumulative GPA. After my 
bachelor's degree program, I will move on to a master's degree 
program. The master's degree will be in management, with an 
emphasis on leadership. Few chronically homeless individuals in 
this country get master's degrees and even fewer get 
doctorates, but that's where I am headed. Without the 
VetSuccess program, this would not be possible.
    My counselor, Jennifer Singer, is a guardian angel. Ms. 
Singer and I check in with one another each month. I am 
accountable to my VA mental health and physical health 
appointments. I report to her on my sobriety, my coping skills, 
both positive and negative, my current employment situation, 
and my family situation. Ms. Singer holds me responsible as a 
student, as an employee, as a father, as a sober member of 
society, and as a husband. She keeps the goals that I set on 
the forefront of my mind. Is it hard work? Hell yes, it's hard 
work. But someone is investing in me, so I owe them the effort 
and the results. She reminds me that I'm an example to other 
veterans in my community and, believe me, other veterans are 
watching. I can provide them something that no one else in the 
community can, proof. Proof that the VA works, proof that 
accountability works, and proof that we can turn our lives 
around if we're willing to work with someone for it.
    I cannot say it enough, without Jennifer Singer and 
VetSuccess, my family and I would not be where we are today.
    I want to thank you for your time and your attention, and 
I'll be happy to answer any questions you may have.

    [The prepared statement of Ryan Kaufman appears in the 
Appendix]

    Dr. Wenstrup. Thank you very much, Mr. Kaufman.
    Welcome back, Mr. Kammerer. You are now recognized for five 
minutes.

                   STATEMENT OF JACK KAMMERER

    Mr. Kammerer. Chairman Wenstrup, Ranking Member Takano, 
thank you for inviting me to appear before you today to discuss 
the Department of Veterans Affairs' VetSuccess VSOC program, 
which is administered through the Vocational Rehabilitation and 
Employment, VR&E service.
    Since the inception of the post-9/11 GI Bill in 2009 
through August of 2015, VA has issued nearly 55 billion to send 
1.45 million veterans and their qualified dependents to 
institutions of higher education. The VA's VSOC program helps 
veteran students and their qualified dependents succeed through 
a coordinated delivery of on-campus benefits assistance and 
counseling by professionally experienced and trained VR&E 
counselors.
    The VSOC program is a collaborative effort between the host 
institution and the VA, with the purpose of providing a 
supportive on-campus environment whereby veterans may obtain 
benefits assistance and peer support. Our 79 VSOC counselors at 
94 college and university partners are able to provide this on-
campus access to VA services for approximately 78,000 veterans.
    VA's VSOC program began as a pilot in 2009, in which one 
VR&E counselor was assigned at the University of South Florida 
campus. To date, the program has expanded to include a total of 
79 VSOC counselors providing on-campus services at 94 
institutions across the United States. Acting as the primary 
on-campus representative of VA, the VSOC counselor provides 
outreach and support to all veterans on campus.
    To better assist veterans in transitioning from the 
military to the college environment, VSOC counselors offer a 
broad range of counseling services, including educational, 
vocational and career, and adjustment counseling. They provide 
vocational testing and career, academic and adjustment 
counseling to resolve any potential problems that may interfere 
with or disrupt a veteran's success while attending college.
    VSOC counselors also use all appropriate and necessary 
resources to ensure that veterans' needs are met in regards to 
issues or problems that may hamper the successful completion of 
their educational programs. Our counselors also assist veterans 
with referrals for more intensive health services, including 
mental, physical or other health treatment through our Veterans 
Health Administration Medical Centers, community-based out-
patient clinics or the Vet Centers. VSOC counselors establish 
and maintain an effective network of other appropriate service 
providers and stakeholders who are available to assist veterans 
in need.
    The desired outcome is to provide veterans with enhanced 
opportunities to achieve success in their academic endeavors, 
and to prepare for entering the labor market in viable and 
enduring careers. With our team of 79 VSOC counselors at the 94 
schools, VR&E continues to provide education and vocational 
counseling and other on-site services to the available 
population at those schools of approximately 78,000 veterans on 
campus.
    The majority of the veterans receiving services visit a 
VSOC counselor in person, with the others communicating with 
their counselor by telephone or by mail.
    In an effort to expand available on-campus services, VSOC 
counselors are coordinating with host institutions to establish 
or enhance peer-to-peer veteran mentoring programs to address 
military-to-college transition issues. At the beginning of each 
fall and spring term, VSOC counselors conduct orientation 
sessions to assist newly enrolled veterans in acclimating to 
the college campus environment.
    This fall, VA worked in conjunction with partner 
institutions to host back-to-school informational events at ten 
VSOC sites. These events introduced newly enrolled students and 
educators to the veteran student community, familiarized 
veterans with their VSOC counselors and services, and 
ultimately will work to cultivate the most supportive community 
for veterans at their institution.
    VA is committed to the VSOC program, and recognizes the 
demand and the need for this program as veterans take advantage 
of their well-earned GI Bill benefits. VA continues to receive 
inquiries from institutions that are interested in assigning a 
VSOC counselor. We evaluate interested institutions for 
potential future participation in the VSOC program and we will 
continue to inform the committee of the evolution of the 
program in the future.
    We continue to assess and improve the VSOC program for our 
most deserving population, those who have decided to commit to 
furthering their educational and vocational goals. As noted, we 
are working to substantially improve and enhance the VSOC 
program to include evaluating additional institutions for 
possible future participation.
    Mr. Chairman, this concludes my statement, and I look 
forward to your questions.

    [The statement of Jack Kammerer appears in the Appendix]

    Dr. Wenstrup. Well, I want to thank the panel, all of you, 
for your testimony and your written statements. And I now yield 
myself five minutes for questions.
    Mr. Kaufman, I specifically want to thank you for your 
service and for having the courage to share your incredible 
story. It's uplifting and gives us all a lot of hope.
    It's clear from your testimony that the Voc Rehab program 
has really given you opportunities you need to be successful. 
So what do you believe could be done to improve the program and 
make sure that we have the opportunity to help hundreds, if not 
thousands of veterans be successful and have stories like 
yours, hopefully not the first part, but the later part.
    Mr. Kaufman. Yes, sir. Thank you for the compliments, Mr. 
Chairman.
    In regards to policy, I would have to defer any policy 
decisions to the Iraq and Afghanistan Veterans of America's DC 
policy team, but in my experience, the relationship matters. So 
the relationship that I have with my VR&E counselor matters. 
And I live in rural America, and geographical lines get redrawn 
on a regular basis and caseloads get switched. And as a 
gentleman who struggles with trust, putting me on a new 
caseload, just like with my VHA doctors, throws me for a loop. 
And now I'm having to remember which person to get a hold of, 
what's their phone number. Right when I memorize somebody's 
phone number, it may change to a new individual. But opening in 
particular the VSOC counselors to many more campuses, 
especially as Mr. Hubbard said from the SVA, to campuses that 
don't have a lot of resources, would be very beneficial, 
especially in my area. Because we are making an investment in 
the veteran, we are not making an investment in a particular 
institution, and our job is to make sure that the veteran is 
successful.
    Does that answer your question, Mr. Chairman.
    Dr. Wenstrup. It does, it is very helpful, because I think 
one of the things that you touched on is important. You know, 
as a physician, I always find it important that, yeah, once in 
a while I may be able to pinch hit for somebody in my practice, 
but that is a relationship between you and the patient that 
really needs to be sustained. Somebody can cover for you once 
in a while, but to really be successful you need that time and 
time again and you need that bond.
    So that input is very helpful to us and that may be 
something that we need to make sure that we monitor and that we 
are providing some consistency for some people, because you are 
at a point in your life where a lot of things are very 
inconsistent. And let's face it, when you are in uniform, 
things are pretty consistent. So that is a big shift when you 
go from that--you know, I have said during my deployment, I 
hated being away from home, but it was a simple life except for 
the fact that people were shooting at me, you know. And from 
that standpoint, I wore the same clothes every day. So that is 
a transition and you need that type of consistency in your 
life.
    And to that, Mr. Harrison, if I can go to you and maybe you 
can expound on some of that consistency, and the doctor as 
well, in your programs, I would appreciate hearing that 
component, because that is something that I think we really 
need to focus on. And also maybe touch on the sharing of a 
counselor between the facilities and universities.
    Mr. Harrison. Thank you, sir.
    Once thing that we see at the University of Cincinnati, we 
do have a number of colleges within a certain proximity of 
ours, there's about nine total, and we do have veterans from 
other schools calling our VSOC counselor for assistance, and 
her caseload is so she can't help them. That is why in my 
earlier statements I did mention that maybe if there was 
another counselor in the region who could cover those schools, 
the smaller schools. The total number of veterans that they 
have wouldn't equal the amount we have at the University of 
Cincinnati; however, that veteran would get their needs met.
    When I was at another institution, I would hear the horror 
stories from veterans trying to get in touch with the Voc Rehab 
counselor, nobody was picking up the phone. And the office 
wasn't that far away where the Veterans manager would have to 
get in his car, go to the office, like, hey, you have veterans 
who have questions, they're making phone calls, but you have to 
get with them.
    So that is why we believe that the program should expand. 
It is a benefit, that is a selling point we do have at the 
University of Cincinnati, and we try to use that to entice 
veterans to come to our school.
    Dr. Wenstrup. Well, I appreciate that. And, Doctor, if you 
could weigh in. The Ranking Member has obliged me a little more 
time here and I will grant him the same.
    Mr. Takano. Today is a little more freewheeling.
    Dr. Wenstrup. I think we----
    Mr. Takano. We have a chance to lead. Yes, go ahead.
    Dr. Wenstrup. To really dive in. And I also am curious at 
what you may feel, of course it depends on the number of 
veterans at each institution that we are talking about, but it 
would be nice if we could figure out a good ratio of counselors 
per veteran or institutions.
    Doctor.
    Lieutenant Colonel Braue. Thank you, Chairman.
    We have approximately 1100, 1200 veterans on campus. We 
have a hundred military students, active duty, and probably 150 
to 200 veterans who are no longer using GI Bill, they have run 
out of benefits. Our VetSuccess On Campus counselor pretty much 
handles just University of South Florida students. I mentioned 
in my testimony about the caseload, the VR&E caseload that she 
has now, that caseload of 50 now really inhibits her ability to 
reach a lot of the other students on campus. In effect, now she 
spends one third of her time with only less than five percent 
of the students on campus, because it is a little bit more 
intensive with, you know, managing a caseload. So that has been 
a problem in--but as far as the consistency, that is something 
we have been able to keep over the course of time she has been 
there.
    She has been there for five years, same person, everybody 
on campus knows her. She has had an impact in the life of many, 
many veterans, in particular one that was on the verge of going 
to commit suicide when she had a meeting with Janine. Janine 
was able to stop her, walk her over to the VA, get her checked 
in, and today she is still in school.
    So this program is an extremely valuable program and I 
really think that with some minor tweaks that it could be even 
better than it is today.
    Dr. Wenstrup. I appreciate that.
    I now recognize Mr. Takano.
    Mr. Takano. Mr. Braue, am I saying your name correctly?
    Lieutenant Colonel Braue. Yes.
    Mr. Takano. Are you a public university or a private 
university?
    Lieutenant Colonel Braue. We are a public university.
    Mr. Takano. And what is your total student enrollment?
    Lieutenant Colonel Braue. Total student enrollment is 
48,000, a little over 48,000.
    Mr. Takano. So 48,000. How many counselors do you have 
available, I mean, generally the number of counselors available 
to the general student population?
    Lieutenant Colonel Braue. We have one VSOC counselor on 
campus.
    Mr. Takano. One VSOC, but let's just talk about counseling 
in general, not counseling that is available to veterans. I 
want the committee to understand the plight of community 
colleges and public universities in terms of the availability 
of counselors generally, and the general challenge of retention 
to students who come to public universities.
    Lieutenant Colonel Braue. Well, we have a VA counselor, 
just the one. We have other counseling services on the campus 
that are open to all students. They are not heavily utilized by 
our student veterans because they just are not experienced with 
the issues that student veterans face and our veterans won't go 
to them.
    Mr. Takano. I understand that, but what I am trying to get 
at is this: I come from the California community colleges and 
we have a tremendous shortage of counselors generally. So one 
of the strategies has been to require every student to take a 
counseling class, they get a one unit credit for that class, so 
that the issues that a counselor would deal with can be dealt 
with, quote-unquote, ``more efficiently.'' Community colleges 
have a general issue with retention. And so what I am trying to 
get at is a general counselor shortage. I come from a public 
school setting where in a 4,000 person a freshman class, you 
might have two counselors. So basically you have a 500-to-1 
counseling burden. So I am just trying to say, I don't believe 
that the counseling function in higher education, public higher 
education, is much better, probably even more difficult in 
terms of the amount of time that a counselor is able to spend 
with a regular student.
    Now, I am just trying to go through this background in 
order to shine a little clearer light on what the challenges 
are when we deal with a veteran who has a much more complex set 
of issues. So we already have a challenge in terms of retention 
in the general student population, now we are talking about how 
we address veterans who carry a lot of other issues with them.
    What is the VSOC counselor caseload? About 50, you say?
    Lieutenant Colonel Braue. Yes, sir.
    Mr. Takano. So is that generally the case, Mr. Kammerer, 
that the VSOC counselors also have a VR&E kind of function?
    Mr. Kammerer. That's a good question, sir. Thank you for 
asking. Of the 79 counselors, I look at a regular spreadsheet 
of their caseload. We currently don't have a policy that says 
VSOC counselors cannot do a regular caseload. As Dr. Braue 
pointed out, we run the gamut from zero up to what I might call 
a full caseload. When I testified to the committee in July, I 
said our average caseload was about 139 per counselor. So for 
FY 2015, I think that was accurate. So Dr. Braue's math was 
about right in my head when he said if his counselor, his VSOC 
counselor had 50 cases, that was about one third of the average 
caseload.
    We are looking at a policy to limit the caseload of 
traditional cases, Mr. Takano. The challenge we have is many of 
the veterans on campus are Chapter 31 clients, or some of them, 
and we need to serve those veterans on campus with Chapter 31 
services with a traditional range of support that our 
counselors provide.
    I use the example in Los Angeles of the VSOC counselor, as 
you know, that serves three--we have a cluster of three 
institutions in Los Angeles. The challenge, as you know, in Los 
Angeles is the regional office is on the other side of town 
from those institutions. So if we didn't serve those veterans 
on campus with the VSOC counselor where they are Chapter 31, we 
would either have to have counselors come from across town from 
the RO to the campuses or we would have to ask the veteran to 
come to the RO, which is not a good idea in Los Angeles 
traffic. So in many cases, I spoke to a counselor this week who 
was visiting for other purposes, who is a VSOC counselor, and 
she carried a caseload of 62 cases and she was comfortable with 
that in her current situation.
    So it is a balancing equation, Mr. Takano, in terms of 
serving the veterans.
    Mr. Takano. Let me get to Mr. Kaufman.
    Mr. Kaufman, I also want to express how moved I was by your 
testimony and thank you for your courage, thank you for your 
service to our country, thank you for continuing to serve our 
country by being so open about your life and your struggles, 
and for being a success. That is going to be such--you already 
are a hero, you will be a bigger hero to show--no, seriously. I 
mean, I have veterans in my community dealing with a number of 
issues and to see somebody get through that is going to be an 
enormous inspiration to them.
    Now, tell me about, you talked about your relationship with 
the VR&E, because you are getting your education through your 
VR&E benefits, not through post-9/11, which we know VR&E is a 
much more generous program, if you can qualify for it. You 
initially went through taking out loans, you didn't really know 
about your educational benefits. Was it the VSOC counselor that 
kind of got you straightened out, is that what happened?
    Mr. Kaufman. So first of all, Mr. Takano, thank you for 
again the compliments. It was actually, it would have been a 
Mr. Harrison or a Dr. Braue that pulled me to the side and 
advised me of VR&E, and then a year later we got a VITAL 
counselor. What the VITAL counselor can provide is VA benefit 
access sooner, almost immediate, rather than me attempting to 
contact my VR&E counselor, especially in September and in 
January when she may have 150 veterans trying to reach her. 
This VITAL counselor, if I am having benefit issues, back 
payment issues or overpayment issues, he has the ability to 
contact the VBA on my behalf and then relay any news from the 
VBA.
    Mr. Takano. Well, your story and your challenges are giving 
me a window into understanding what happens and how veterans 
become homeless and how they go through initial missteps.
    I am concerned about the caseload of VR&E of 50 people to 
that one VSOC person. I mean, you have a huge student veteran 
population and I can imagine the counselor just totally being 
challenged because, it is a lot of work. You hear Mr. Kaufman's 
story and you see how much time and energy it takes for that 
trusted person to do their job, that is just--50 people, I am 
not saying that all of them, you know, will be as intense as 
Mr. Kaufman, but I can imagine that a lot of them are. So I 
can't imagine that we don't have a presence on campuses, that 
is my thing, that we don't, you know--go ahead, Mr. Braue, will 
you respond?
    Lieutenant Colonel Braue. Thank you, sir. I completely 
agree, having this VetSuccess On Campus counselor is essential, 
it is absolutely essential. The caseload, the Chapter 31 
caseload that she has does take away from her ability to meet 
the needs of other people who might need her services and a 
Chapter 31 case, it can be intensive. Having her on campus, it 
makes her more accessible than most VR&E counselors who only 
come to campus once in a while. So her being on campus, her 
caseload, the members, the people that she is managing can walk 
in two or three times a week to see her, which then exacerbates 
the problem of her not being able to reach other people. So she 
is really spending more time on the Chapter 31s than she would 
if she were not a VR&E--if she was a VR&E somewhere else. So 
that becomes an issue too.
    But having her on campus, even with a smaller caseload, I 
think we could agree that, you know, there is a limit that she 
could have. However, 50 does seem to be a little excessive from 
what we have been able to observe over the past several months.
    Mr. Takano. Thank you, thank you.
    Dr. Wenstrup. First of all, let me thank all of you today. 
I think in a short time we really learned a lot and we got a 
lot of good information.
    Mr. Hubbard, I appreciate your input too with the changes 
that you recommend.
    And I hope, Mr. Kammerer, that you got as much out of this 
today as I think we did, and that benefits all of us.
    So I look forward to continuing to work with everyone here 
today to ensure that we reach our goals and take care of our 
veterans, who deserve no less than our great attention.
    So, finally, I ask unanimous consent that all members have 
five legislative days to revise and extend their remarks and 
include any extraneous material in the record of today's 
hearing.
    [No response.]
    Hearing no objection, so ordered.
    And if there's nothing further, this hearing is adjourned. 
Thank you
    [Whereupon, at 2:48 p.m., the subcommittee was adjourned.]

                                APPENDIX

                  Prepared Statement Terence Harrison

    Good afternoon. I'd like to thank Chairman Wenstrup, Ranking Member 
Takano, and Members of the Subcommittee on Economic Opportunity for 
inviting me to participate in today's hearing on the Department of 
Veterans Affairs' VetSuccess on Campus Program.
    My name is Terence Harrison and I am the Manager for Veterans 
Programs and Services at the University of Cincinnati. The University 
of Cincinnati, or ``UC,'' is a public research university, enrolling 
more than 44,000 undergraduate and graduate students in 2014. Our 
campus is made up of students from all 50 states and from 100 countries 
around the world. Recognized as a Military Friendly School, UC is both 
a leader and champion in military and veteran related issues. 
Currently, UC enrolls about 2,392 military-affiliated students, 
including active duty military, members of the National Guard and the 
Reserves, veterans, and family members. Of this total, 1,016 students 
are using GI Bill benefits. With the anticipated draw-down of active 
duty personnel, the University of Cincinnati is energetically 
positioning itself to accommodate these students. UC adheres closely to 
the VA's principles of excellence in providing a high-quality 
educational experience tailored to the unique needs of veteran 
students.
    The University of Cincinnati continues to hold a positive view of 
the VetSuccess on Campus, or ``VSOC'' Program. UC is home to one of the 
three VSOC programs in the state of Ohio--with others located at The 
Ohio State University and Cleveland State University. The VSOC program 
aims to assist veterans and servicemembers, as well as their 
dependents, as they transition from active duty to postsecondary 
education. Through the VSOC program, a VA Vocational Rehabilitation 
Counselor is assigned to UC to support student veterans and assist with 
any problems that arise that may interfere with the education of a 
student veteran.
    At UC, student veterans regularly reach out to VSOC for assistance 
on a range of matters, including: expediting and resolving issues with 
VA education benefits; looking up pending VA payments and when they can 
expect to receive them; explaining VA payments clearly; assisting in 
applying for education, healthcare, and other VA benefits; questions 
about their remaining benefits; and understanding and resolving VA 
debt.
    VSOC is a valuable resource for our student veterans, and ensures 
that they receive expedient service from the VA while they attend UC. 
Our VSOC counselor has been with the VA for over nine years and has 
been helpful in establishing a successful VSOC program at UC.
    The University of Cincinnati's partnership with the VSOC Program 
began in September 2013. At UC, the VSOC office is housed within the 
same building as the Veterans Programs and Services Office to 
conveniently meet the needs of student veterans and to provide a cross-
functional team approach to resolving challenges that our veterans 
face. Housing the VSOC office and our VSOC Counselor on campus also 
allows UC to coordinate with the VA.
    UC annually enrolls an average of 1,200 student veterans, active 
duty military, and beneficiaries using VA education benefits. 
Throughout the year, VSOC contacts all of these students several times 
to offer VA support. VSOC allocates time each semester to meet with 
student veterans at the University, including at both of UC's regional 
campuses. In addition to these meetings, VSOC also participates in 
numerous outreach events throughout the academic year, including 
Student Resource Fairs and awareness training sessions for advisors, 
faculty, and staff.
    VSOC conducts additional outreach activities, including employment 
workshops focusing on translating military skills into a civilian 
resume, recognizing post-traumatic stress disorder and traumatic brain 
injury symptoms, new student orientation, town hall meetings, job 
fairs, and health fairs in collaboration with VA Medical Centers.
    VSOC also works with other groups on campus and within the 
community to collaboratively support the needs of UC's student 
veterans, including the Ohio beta chapter of Omega Delta Sigma, a co-
ed, veteran-only fraternity; the Tristate Veterans Community Alliance; 
the VFW Ohio; and AMVETS, among others.
    In addition to VSOC, the University of Cincinnati is also a 
Veterans Integration to Academic Leadership, or ``VITAL,'' Location. 
VSOC and VITAL together have developed a streamlined approach in 
assisting veterans with VA Medical Center needs. This approach provides 
UC's veterans with expedited VA Medical Center service coordination at 
the Cincinnati VA Medical Center.
    In order to best meet the needs and improve services for our 
student veterans, we believe it is important to expand the VSOC program 
to additional schools. For smaller schools that do not have a VSOC, we 
suggest the VSOC work with a number of schools in a geographical area. 
For example, in Ohio, one counselor could oversee Xavier University, 
Cincinnati State Technical and Community College, and Mount St. Joseph 
University. The case load of these counselors could be comparable to 
the caseload at larger schools and give the student veterans at these 
institutions the support they need.
    As for improved coordination between universities and the VA, we 
have found that housing our VSOC counselor on campus has allowed UC and 
the VA to easily collaborate, which is beneficial to our student 
veterans.
    In closing, I want to thank you for allowing me to discuss the VSOC 
program and to share the great work that the University of Cincinnati 
is doing to accommodate veteran students. I look forward to working 
with you as you expand services for veteran students and again offer 
the University of Cincinnati as an example to inform policy and to 
guide schools in shaping their programs.
    I'm happy to answer any questions you may have.
    Terence Harrison

                                 <F-dash>

              Prepared Statement of Dr. Lawrence A. Braue

    Chairman Wenstrup, Ranking Member Takano, on behalf of the 
University of South Florida, thank you for holding today's hearing and 
allowing us to share our experience with the VetSuccess on Campus 
Program (VSOC) and the impact it makes on our campus every day. By way 
of background, the University of South Florida (USF) is a high-impact, 
global research university dedicated to student success. It is the 8th 
largest university in the U.S. and serves over 48,000 students. In 
addition, over 2,000 veterans and their families are enrolled as 
students at USF. USF was ranked by Military Times Best for Vets 
magazine as the 5th best college for veterans. Under the leadership of 
President Judy Genshaft, the University of South Florida has become a 
national leader in serving student veterans.
    In June, 2009, The University of South Florida became the first 
institution of higher learning to participate in the Department of 
Veterans Affairs VetSuccess on Campus program. Ms. Jeanine Frederick is 
our current VSOC Counselor and has served in this role since June, 2010 
Ms. Frederick quickly became an integral member of the Office of 
Veterans Services team and an effective liaison between USF and the VA. 
Ms. Frederick is an amazing Counselor and has made this program a 
complete success on our campus.

Program Successes

    Having the VSOC Counselor available to veterans on a daily basis 
has vastly improved the university's ability to meet the needs of our 
students. In addition, it has greatly increased the confidence of our 
student veterans in the Department of Veterans Affairs.
    Through the VetSuccess on Campus Program, our Counselor developed 
an extremely effective outreach program that dramatically increased the 
awareness of VA programs and benefits available to student veterans. 
This calendar year, Ms. Frederick has helped over 300 veterans 
individually and reached over 750 students through campus outreach 
events. She is frequently called upon to advocate for veterans with 
faculty members who do not understand the challenges our disabled 
veterans face in the classroom.
    In the Fall of 2013, Ms. Frederick initiated a highly successful 
Vet-to-Vet Tutoring Program where academically successful VA Work Study 
veterans would provide one-on-one tutoring for other student veterans. 
Since this program started in the Fall of 2013, over 165 students have 
received individualized tutoring services at no cost to the veteran.
Program Challenges
    The VetSuccess on Campus program has not been without its 
challenges for the University of South Florida. It is important that I 
clarify that I can only speak for the University of South Florida and 
what we have experienced. The VetSuccess on Campus program is 
influenced by two separate offices within the Vocational Rehabilitation 
and Education arm of the VA. Often times, those two offices provide our 
VSOC Counselor with competing or conflicting guidance. Because the 
Regional Office has very limited understanding of VSOC and is not 
involved in the day to day operation of the program, it makes it very 
difficult for them to provide effective supervision for the VSOC 
Counselor.
    Over time, the VetSuccess on Campus program's purpose and goals 
changed without a collaborative effort with university.
    For example: Recently, the VR&E Regional Office assigned a Chapter 
31 caseload of 50 to our VSOC Counselor. This is approximately 1/3 of 
the Chapter 31 caseload for a full-time VR&E Counselor. This is a 
significant change which alters the way VSOC functions on our campus. 
This change is also inconsistent with the Memorandum of Understanding 
between USF and the VA which creates a hardship for the VSOC Counselor 
and the school. This effectively reduces her ability to have a positive 
impact on the academic and lifelong success of the total veteran 
population.
    In order to maximize the effectiveness of our partnership, the 
university should be part of the program development and decision 
making process.
    I believe with a few structural and leadership modifications, this 
program could greatly enhance retention and graduation rates for 
student veterans using the Post 9/11 GI Bill.
    My recommendations are to:

         1. Simplify the reporting structure for the VetSuccess on 
        Campus Program by creating one office to manage the program and 
        the VSOC Counselors and ensure that VSOC Counselors do not 
        receive direction and guidance from multiple sources.
         2. Establish and maintain consistent, meaningful dialog 
        between the VA and the university ensuring that the university 
        has a voice in program development and the decision making 
        process.
         3. I also believe it is critical that the VA include colleges 
        and universities in the plan to develop success metrics for 
        graduation and retention of veterans using the GI Bill.

    Again, I want to thank the committee for allowing the University of 
South Florida to share our experience with the VetSuccess on Campus 
Program. It is an honor and a privilege to have this amazing program on 
our campus. I hope we can build upon the successes of the program and 
make the adjustments necessary to make the program even stronger for 
our future student veterans.
    Thank you.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
                  Prepared Statement of Jack Kammerer

    Chairman Wenstrup, Ranking Member Takano, and members of the 
Subcommittee, thank you for inviting me to appear before you today to 
discuss the Department of Veterans Affairs (VA) VetSuccess on Campus 
(VSOC) program. The VSOC program is administered through our Vocational 
Rehabilitation and Employment (VR&E) Service.
    Since inception of the Post-9/11 GI Bill in 2009 through August 
2015, VA has issued nearly $55 billion to send 1.45 million Veterans 
and their qualified dependents to institutions of higher education 
(institutions) under the program. VA's VSOC program helps Veteran 
students and their qualified dependents succeed and thrive through a 
coordinated delivery on-campus of benefits assistance and counseling by 
professionally experienced and trained VR&E counselors. The VSOC 
program is a collaborative effort between the host institution and VA 
with the purpose of providing a supportive, on-campus environment 
whereby Veterans may obtain benefits assistance and peer support. With 
our 79 VSOC counselors at 94 college and university partners, we are 
able to provide on-campus access to our services to approximately 
78,000 Veterans.

VSOC Program Overview

    VA's VSOC program began in 2009 as a pilot project in which one 
VR&E counselor was assigned to the University of South Florida campus. 
VA realized the success of the pilot, and by the end of 2012, the VSOC 
program grew to include 27 full-time VR&E counselors who served over 
9,600 students spanning 32 campuses in 16 states. In late 2012, 
invitation letters were sent to colleges and universities nationwide to 
solicit their interest in participating in the next VSOC expansion. To 
date, the program has expanded to include a total of 79 VSOC counselors 
providing on-campus services at 94 colleges and universities throughout 
the United States.
    Acting as the primary ``on-campus'' representative on behalf of VA, 
the VSOC counselor provides outreach and support to all Veterans on 
campus. To better assist Veterans in transitioning from the military to 
the college environment, VSOC counselors offer a broad range of 
counseling services, including educational, vocational/career, and 
adjustment counseling. They provide vocational testing and career/
academic and adjustment counseling to resolve any potential problems 
that may interfere with or disrupt a Veteran's success while attending 
college. VSOC counselors also use all appropriate and necessary 
resources on campus, in the community, and within VA to ensure that 
Veterans' needs are met in regards to issues or problems that may 
hamper the successful completion of their educational programs. VSOC 
counselors also assist Veterans with referrals for more intensive 
health services, including mental, physical, or other health treatment, 
through our Veterans Health Administration medical centers, community-
based outpatient clinics, or Vet Centers. VSOC counselors establish and 
maintain an effective network of other appropriate service providers 
and stakeholders who are available to assist Veterans in need. The 
desired outcome is to provide Veterans with enhanced opportunities to 
achieve success in their academic endeavors and to prepare for entering 
the labor market in viable and enduring careers.

VSOC Update

    With its team of 79 VSOC counselors at 94 partner institutions 
across the country, VR&E continues to provide educational and 
vocational counseling and other on-site services to an available 
population of approximately 78,000 Veterans on campus. The majority of 
Veterans receiving services visited a VSOC counselor in-person, with 
the others communicating with their counselor by telephone or email. In 
an effort to expand available on-campus services, VSOC counselors are 
coordinating with host institutions to establish or enhance peer-to-
peer Veteran mentoring programs to address military-to-college 
transition issues. At the beginning of each fall and spring term, VSOC 
counselors conduct orientation sessions to assist newly enrolled 
Veterans in acclimating to the college campus environment. This fall, 
VA is working in conjunction with partnering institutions to host 
``Back to School'' informational events at 10 selected VSOC sites. 
These events will introduce newly enrolled students and educators to 
the Veteran student community, familiarize Veterans with their VSOC 
counselors and the services they can provide, and ultimately work to 
cultivate the most supportive community for Veterans at each 
institution.
    VA is committed to the VSOC program and recognizes the demand and 
need for this program as Veterans take advantage of their well-earned 
GI Bill benefits. VA continues to receive inquiries from institutions 
that are interested in assigning a VSOC counselor to their institution. 
VA evaluates interested institutions for potential future participation 
in the VSOC program, and we will continue to inform the Committee of 
the evolution of the program in the future.

Conclusion

    VA continues to assess and improve the VSOC program for a most 
deserving population of men and women who have decided to commit to 
furthering their educational and vocational goals. Through the updates 
noted, VA is substantially improving and materially enhancing the VSOC 
program, to include evaluating additional institutions for possible 
future participation.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions from you or any of the other members of the 
Subcommittee.

                                 [all]
</pre></body></html>
